  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




State and Local Bioterrorism Preparedness




                      JANET REHNQUIST
                      INSPECTOR GENERAL

                       DECEMBER 2002
                        OEI-02-01-00550
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                      EXECUTIVE SUMMARY

PURPOSE

        To assess State and local health departments’ capacity to detect and respond to a bioterrorism
        event.

BACKGROUND

        The Centers for Disease Control and Prevention (CDC) has funded State bioterrorism
        preparedness efforts through cooperative agreements since 1999. More recently, it has
        worked with State and local health departments to develop performance guidance, called the
        Core Capacity Project, for bioterrorism preparedness. The CDC asked the Office of
        Inspector General (OIG) to assess State and local health departments’ bioterrorism detection
        and response capacity using these core capacities, which are performance measures for
        preparedness.

        Although this inspection was initiated prior to the terrorism events of 2001, the data collection
        was conducted in the wake of those events. When we met with State and local health
        departments in December 2001 and January 2002, many jurisdictions were in the process of
        re-evaluating and upgrading their bioterrorism programs.

        In conducting this inspection, we selected a purposive sample of 12 States and 36 local health
        departments (3 within each State). Using the core capacities as benchmarks, we assessed each
        health department’s preparedness.

FINDINGS

The State and local public health infrastructure is under-prepared to detect and
respond to bioterrorism

        The capacity of a State, county, or city to detect and respond to bioterrorism depends both on
        the strength of its public health infrastructure and on the ability of its public health department to
        work with emergency response partners. Our review of 12 State and 36 local health
        departments identified vulnerabilities in their infrastructure that leave them not fully prepared for
        a bioterrorism event.

           Surveillance and epidemiologic investigation. State and local health departments rely on
           surveillance systems and epidemiologic investigations to detect and define bioterrorism events.
           In 3 State and 10 local health departments, communicable disease reports used for surveillance
           are not always submitted timely or consistently by providers. Further, 9 State and 26 local
           health departments do not fully validate the reports they
                                                     _____

State and Local Bioterrorism Preparedness               i                                     OEI-02-01-00550
          receive and only 4 State and 17 local health departments say they have an active surveillance
          system in addition to disease reporting. In addition, 3 State and 15 local health departments
          lack the specialized staff and technology they would need to support epidemiologic
          investigations during an event; 17 local health departments do not have an epidemiologist on
          staff.

          Identification. States also rely on laboratory testing to detect and define the scope of
          bioterrorism events. The Laboratory Response Network is designed to link local level A
          clinical labs with level B labs and the State’s level C public health lab. However, it is not fully
          implemented. Five of 12 States have an incomplete list of level A laboratories, and 7 State
          laboratories lack support from external level B or C laboratories. In three-quarters of our
          sample States, at least one respondent reports that their State laboratory was overwhelmed by
          the many tests requested during recent, relatively small, anthrax events.

          Communication. Responding to a bioterrorism event requires communicating with response
          partners. Five State and 17 local health departments have questionable capacity to
          communicate on a 24 hour, 7 day a week basis. Also, 9 State and 24 local health departments
          do not have complete risk communication plans.

          Mobilization. Response also involves the mobilization of personnel and supplies. One quarter
          of State and local health departments acknowledge that they lack the equipment, supplies,
          and/or trained staff to independently respond to large-scale bioterrorism events. They say they
          will be dependent on the community, the State, and the National Pharmaceutical Stockpile.
          However, 5 State and 20 local health departments do not have complete plans for receipt and
          deployment of the Stockpile. Further, 4 State and 21 local health departments have not tested
          their response protocols.

          Public health interventions . Lastly, responding to bioterrorism requires implementing public
          health interventions. Four State and 14 local health departments report that they do not have all
          the laws, rules, and regulations they may need to fully activate and enforce public health
          interventions that are necessary to control a disease outbreak. These interventions include
          quarantine, seizure of property, and restriction of travel.

In response to recent terrorism events, virtually all public health departments are
strengthening their bioterrorism preparedness programs

          Recent events have heightened awareness around bioterrorism preparedness. All State and 32
          local health departments we visited have written or are writing a bioterrorism response plan.
          They have also integrated their preparedness activities with response partners in the community.
          Seven State and ten local health departments say they have received more decision-maker
          support for their bioterrorism programs since the events.




                                                    _____

State and Local Bioterrorism Preparedness             ii                                       OEI-02-01-00550
Recent funding provides an opportunity to strengthen public health
infrastructure, but concerns remain

          Since February 2002, CDC funding for bioterrorism preparedness increased from $66.7 million
          to $918 million, and the Health Resources and Services Administration (HRSA) implemented a
          new $125 million program for hospital bioterrorism preparedness. Written guidance for these
          programs appears to address many of the vulnerabilities noted above. However, some issues
          remain unaddressed. Program guidance gives little or no support for addressing the mental
          health needs of first responders, victims and their families, and anxious members of the public,
          such as those seeking unnecessary medical attention. Further, some health departments raise
          concern about tactical decisions related to response, such as who receives limited equipment
          and supplies and whether or not first responders should be immunized. Some States also stress
          the need for sustained Federal funding to develop and maintain the public health infrastructure.

CONCLUSION

          The findings in this report show that our public health infrastructure has left us under-prepared
          to detect and respond to bioterrorism. Not all State and local health departments have
          sufficient staff, surveillance systems, technology, or laboratory capacity to quickly and
          accurately identify an attack. Some also lack the plans, partnerships, or authorities to
          adequately respond. Since the anthrax attacks in the Fall of 2001, health departments have
          started to reassess their preparedness and the Federal government has substantially increased
          funding to rebuild public health infrastructures. Based on these findings, we conclude that
          further work is needed at the Federal, State, and local levels to ensure that our country’s public
          health system is fully prepared to respond to bioterrorism.


RECOMMENDATIONS

          First and foremost, CDC should develop a monitoring system to ensure that the
          bioterrorism preparedness funds are being used as intended. In 2002, State and local
          health departments will receive $918 million in cooperative agreement funds to bolster the
          public health infrastructure and improve their capacity to detect and respond to bioterrorism.
          Each of these cooperative agreements outlines a plan for reaching these goals. It is essential
          that CDC closely monitor the progress of State and local health departments in accomplishing
          the goals set forth in these plans.

          The Assistant Secretary for Public Health Emergency Preparedness should work with
          States to develop strategies that sustain the public health infrastructure subsequent to
          the current influx of Federal funding. Although there will be a significant increase in Federal
          support to States, it is essential that infrastructure improvements be maintained in order to
          protect our nation from the effects of future bioterrorism attacks.




                                                   _____

State and Local Bioterrorism Preparedness            iii                                      OEI-02-01-00550
          The CDC and the Substance Abuse and Mental Health Services Administration should
          work together to address community mental health needs in its future guidance to
          States. Our review of CDC’s new program guidance reveals that it does not fully address the
          mental health components of bioterrorism preparedness. Should a bioterrorism event occur,
          first responders, victims and their families, and anxious members of the public would likely have
          significant mental health needs.

          The CDC should work with States to help them address tactical decisions related to
          bioterrorism response. Respondents raise several of these issues, such as deciding which
          patients would receive limited treatment and immunizing first responders. The CDC should
          provide technical assistance to States to support them in discussing and planning to deal with
          these, and potentially other, tactical decisions.

AGENCY COMMENT

          The Assistant Secretary for Public Health Emergency Preparedness (ASPHEP), who directs
          and coordinates the HHS activities related to bioterrorism and other public health emergencies,
          commented on the draft report on behalf of the pertinent HHS agencies and offices. In general,
          the ASPHEP concurs with our recommendations. It notes that financial and program
          monitoring systems are being developed for the cooperative agreements. The ASPHEP also
          notes that CDC will include mental health needs in future guidance, as well as provide technical
          assistance to States. Appendix B contains the full text of the comment.




                                                   _____

State and Local Bioterrorism Preparedness            iv                                      OEI-02-01-00550
                             TABLE OF CONTENTS




                                                                                                                         PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS

          Public health infrastructure is under-prepared . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Virtually all public health departments are strengthening preparedness . . . . . . . . . . . . . . . . . 14


          Recent funding provides opportunity, but concerns remain . . . . . . . . . . . . . . . . . . . . . . . . . . 15


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDIX

           Appendix A: 2002 Guidance Addresses Key Vulnerabilities . . . . . . . . . . . . . . . . . . . . . . . 19


           Appendix B: Agency Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21



ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24





                                                             _____

State and Local Bioterrorism Preparedness                      v                                                 OEI-02-01-00550
                                        INTRODUCTION

PURPOSE

          To assess State and local health departments’ capacity to detect and respond to a bioterrorism
          event.

BACKGROUND

          The Centers for Disease Control and Prevention (CDC) asked the Office of Inspector General
          (OIG) to assess State and local health departments’ bioterrorism preparedness. At that time,
          CDC was funding State and local health departments through their Bioterrorism Preparedness
          and Response Cooperative Agreement Program and was participating in the Bioterrorism
          Preparedness and Response Core Capacity Project 2001. The CDC made this request prior
          to recent terrorism events.

Bioterrorism

          The anthrax events of 2001 highlighted the important role the public health system plays in
          responding to bioterrorism, that is, the deliberate release of a biological disease agent for the
          purpose of killing or harming people. Unlike traditional terrorist attacks, a biological attack can
          be covert and, therefore, unnoticed for days, even weeks. The first responders will be health
          care providers and the public health system, not traditional emergency personnel. The recent
          anthrax events caused 18 people to contract the disease, 5 of whom died. The consequences
          of any future bioterrorism events could be far more widespread, resulting in life-threatening
          illness on a large-scale that could overwhelm the capacity of the current public health system.

          It is the responsibility of State and local health departments to identify and to prepare their
          communities to respond to a bioterrorism event. They are reliant on both their partnership with
          each other, as well as their partnerships with other government and private entities. In fact, the
          National Association of County and City Health Officials (NACCHO) asserts that, at the local
          level, public health is reliant on the “shared responsibility of many entities, organizations, and
          interests in the community.” These relationships become especially important during a
          bioterrorism event because public health departments are reliant on assistance from emergency
          response partners to effectively respond.




                                                    _____

State and Local Bioterrorism Preparedness             1                                       OEI-02-01-00550
The Department’s Role in Bioterrorism Preparedness

          The Department of Health and Human Services (HHS) has several agencies involved in
          bioterrorism preparedness. However, the CDC, the Health Resources and Services
          Administration (HRSA), and the Office of Emergency Response (OER), formerly the Office of
          Emergency Preparedness, in the Office of the Assistant Secretary for Public Health Emergency
          Preparedness (ASPHEP) have the primary responsibility to support State and local
          preparedness efforts. In addition, the newly created ASPHEP directs the Department’s efforts
          to prepare for, protect against, respond to, and recover from all acts of bioterrorism and other
          public health emergencies that effect the civilian population. It also serves as the focal point
          within the HHS for these activities.

          The CDC is leading the effort to ensure the public health infrastructure is fully prepared to
          respond to bioterrorism. More specifically, it is leading several bioterrorism preparedness
          initiatives, including the State and Local Bioterrorism Preparedness and Response Cooperative
          Agreement Program, the National Pharmaceutical Stockpile, the Health Alert Network, the
          Laboratory Response Network, and the Bioterrorism Core Capacity Project.

          The HRSA began funding State health departments to improve their bioterrorism hospital
          preparedness programs in February 2002. The purpose of this cooperative agreement
          program is for States to upgrade hospital preparedness by identifying and implementing
          preparedness plans for hospitals. The cooperative agreements are available to all 50 States,
          the District of Columbia, New York City, Los Angeles County, Chicago, and the territories.

          The OER is responsible for managing the medical and public health consequences during public
          health emergencies, including bioterrorism. Specifically, the OER provides start-up funds for a
          planning process, basic equipment, and a pharmaceutical cache for local and regional
          emergency response systems through the Metropolitan Medical Response System Program
          (MMRS) to improve our largest metropolitan areas capacities to provide integrated, unified
          response to a mass casualty event, including bioterrorism. There are currently 122
          municipalities receiving MMRS funding.


CDC’s Role in Bioterrorism Preparedness

          Bioterrorism Preparedness and Response Cooperative Agreement Program. One of
          the primary initiatives CDC has undertaken to improve the public health infrastructure’s ability
          to respond to bioterrorism is the Bioterrorism Preparedness and Response Program. This
          program, directed by the Office of Terrorism Preparedness and Response, is a cooperative
          agreement program between CDC and each of the 50 States plus the District of Columbia,
          New York City, Los Angeles, Chicago, and the territories. It is intended to upgrade State and
          local health department preparedness and response



                                                   _____

State and Local Bioterrorism Preparedness            2                                      OEI-02-01-00550
          capabilities relative to bioterrorism. The program started in 1999, but all of the States did not
          begin participating until 2001. The awards totaled $66.7 million in FY 2001 and increased to
          $918 million in FY 2002. In addition to the funds, CDC provides ongoing technical assistance
          and planning guidance.

          The cooperative agreements are divided into seven focus areas. Areas A through E have been
          funded since 1999, but few awardees received funding in all five areas until 2002. Focus areas
          F and G are new in 2002. The seven areas are:

          A. 	       Preparedness Planning and Readiness Assessment funds the development and
                     implementation of State-specific plans to address public health issues following a
                     biologic or chemical terrorist attack.

          B. 	       Surveillance and Epidemiology Capacity enables States to enhance, design, or
                     develop systems to rapidly detect unusual disease outbreaks.

          C. 	       Laboratory Capacity - Biologic Agents enables State and a few city public health
                     laboratories to have the core diagnostic capabilities for bioterrorism agents.

          D. 	       Laboratory Capacity - Chemical Agents enables States to acquire and maintain
                     state-of-the-art diagnostic capabilities for chemical agents.

          E. 	       Health Alert Network/Communications and Information Technology assists
                     States and local health departments to develop a communication network (internet or
                     fax) that will be used to broadcast and receive key information, such as public health
                     alerts and distance-learning offerings. Further, it is intended to ensure electronic data
                     exchange and the protection of data, information, and systems.

          F. 	       Communicating Health Risks and Health Information Dissemination ensures
                     that State and local public health organizations develop an effective risk
                     communications capacity that will provide timely information to the public during a
                     bioterrorism event.

          G. 	       Education and Training ensures that State and local health agencies have the capacity
                     to (a) assess the training needs of key public health professionals, infectious disease
                     specialists, emergency department personnel, and other health care providers related to
                     preparedness for the detection of and response to bioterrorism, and (b) ensure effective
                     provision of needed education and training to key target audiences.

          National Pharmaceutical Stockpile (NPS) Program. This program, run by CDC’s
          National Center for Environmental Health, is a national repository of antibiotics, chemical
          antidotes, antitoxins, life-support medications, intravenous administration and airway
          maintenance supplies, and medical/surgical items. The stockpile consists of “12-

                                                       _____

State and Local Bioterrorism Preparedness                3                                        OEI-02-01-00550
          hour push packages” and the Vendor Managed Inventory. The “12-hour push packages”
          consist of preassembled sets of supplies, pharmaceuticals, and medical equipment ready for
          quick delivery. The Vendor Managed Inventory consists of additional pharmaceuticals and/or
          medical supplies that can be tailored to a specific event and shipped within 24 to 36 hours.

          Health Alert Network (HAN). The Health Alert Network is a nationwide program
          established to facilitate communication, information, and distance-learning related to health
          threats, including bioterrorism. When fully established, the network, through a high-speed,
          continuous, and secure connection to the Internet, will link local health departments to one
          another as well as to other components of bioterrorism preparedness and response, such as
          laboratories and State health departments.

          Laboratory Response Network (LRN). The CDC is establishing a network that will link
          laboratories throughout the country to public health laboratories and state-of-the art facilities
          that can analyze biological agents. The LRN divides laboratories into four levels according to
          their capacity to test biological and chemical terrorism agents. The CDC laboratory is level D,
          the highest level in the network. Next are laboratories at levels B and C with the capacity to
          test for certain biological agents, such as anthrax. Level A will consist of local clinical
          laboratories that conduct rule-out testing and refer specimens to higher level laboratories. For
          each level, the network describes laboratory responsibilities, and outlines how to access the
          State Public Health Laboratory, CDC, and the FBI to refer or report suspected agents.

The Bioterrorism Core Capacity Project

          In an effort to further help State and local health departments improve their public health
          systems’ ability to detect and respond to bioterrorism, the CDC is leading a joint local, State,
          and Federal effort called the Bioterrorism Preparedness and Response Core Capacity Project
          2001 (Core Capacity Project). The primary organizations involved are the National
          Association of County and City Health Officials (NACCHO) and the Association of State and
          Territorial Health Officials (ASTHO). The mission of the project is to develop the capacities of
          State and local public health systems to prepare for and respond to a bioterrorism event.
          During four working sessions, this group developed a document that is intended to provide
          guidance on the highest priority capacities.

          The Core Capacity Project draft document sets forth five goals for a public health system.
          These goals are as follows:

          1. Surveillance and epidemiologic investigation: The public health system monitors
          community health status to detect the presence of critical bioterrorism agents and, through
          epidemiological investigations, characterizes the public health emergency.




                                                   _____

State and Local Bioterrorism Preparedness            4                                        OEI-02-01-00550
          2. Identification: The Laboratory Response Network for bioterrorism can rule-out, refer,
          identify, confirm, and characterize biological threat agents.

          3. Communication: The public health system assures that information is collected, analyzed,
          and communicated effectively among the response community, decision-makers, and the
          general public.

          4. Mobilization: The public health system identifies, coordinates, and deploys public health
          assets to assure an effective emergency response.

          5. Public Health Interventions: The public health system implements emergency health
          measures to control and contain an outbreak.



METHODOLOGY

          We combined three methods for this inspection, including in-person interviews, self-
          administered questionnaires, and document reviews. We limited our review to 12 States in
          order to obtain detailed and comprehensive data on State and local bioterrorism programs.

Sample

          We selected a purposive sample of 12 States and 3 local health departments in each of these
          States, for a total of 48 sites. We chose the States based on four criteria:
          1) geographic location; 2) population; 3) the amount of funding the State received from 1999 to
          2001 through CDC’s Bioterrorism Preparedness and Response Cooperative Agreement
          Program (excluding funding for laboratory capacity for chemical agents); and 4) the relationship
          between the State and the local health departments (decentralized, centralized, mixed, or
          shared). In decentralized States, the local government runs the local health department. In
          centralized States, local health departments function directly under the State’s authority. Mixed
          States have some decentralized localities and some localities are run by the State. In States
          with a shared system, State and local governments share authority over the local health
          departments.

          The three local health departments we selected in each of the States included: the one serving
          the capital city, the one serving the highest populated city (unless the capital city is the highest
          populated city; in that case we chose another populous city), and one in a suburban or rural
          area. For the purposes of this report, we define local health department as a city, county,
          regional, or municipal level health department, even in centralized States where these agencies
          are part of the State department of health.



                                                     _____

State and Local Bioterrorism Preparedness              5                                         OEI-02-01-00550
State Health Department Site Visits

          We conducted an on-site interview with State health department officials in each State and
          discussed their capacity to respond to a bioterrorism event. These interviews were conducted
          during December 2001 and January 2002. We interviewed various officials responsible for
          preparedness, such as the State epidemiologist, public health laboratory director, bioterrorism
          preparedness coordinator, the Health Alert Network director, and in some cases, staff from
          emergency response agencies. In seven States the director of the department of health was
          present. We designed the interview questionnaire based on the goals of the Core Capacity
          Project’s guidance. Specifically, we reviewed each State health department’s level of
          bioterrorism preparedness in the following areas: surveillance and epidemiology, identification,
          communication, mobilization, and intervention.

Local Health Department Site Visits

          We conducted an interview with officials in each of the local health departments about their
          capacity to respond to a bioterrorism event. All but one of these interviews were conducted
          on-site during the same week as the State health department visit. We interviewed the officials
          responsible for the public health response to bioterrorism, which generally included the director
          of public health. We again designed the interview questionnaire based on the Core Capacity
          Project’s guidance to State and local health departments. We asked about the local health
          department’s capacity in each of the following areas: surveillance and epidemiology,
          identification, communication, mobilization, and intervention.

Core Capacity Self-Assessment

          We asked respondents at each State and local health department to complete a self-assessment
          of their bioterrorism preparedness. All 12 State and 36 local health departments responded
          between December 2001 and March 2002. The assessment was based on the most detailed
          level of the Core Capacity Project’s guidance. It asked health departments to rate their
          capacity on 277 specific tasks related to bioterrorism preparedness. For each item, we asked
          the health departments to indicate if they had full capacity, partial capacity, or no capacity.
          (See “State and Local Bioterrorism Preparedness: Report Card,” OEI-02-01-00552, for more
          information on the results.)

Review of Bioterrorism Response Plans

          We also asked each State and local health department to submit a copy of their bioterrorism
          emergency response plan, if one existed. We received and reviewed 28 plans. We assessed
          the plans’ overall structure and content. Specifically, we reviewed each plan’s organizational
          chart, response procedures, including plan activation procedures, response partner list, and
          NPS plan.

                                                   _____

State and Local Bioterrorism Preparedness            6                                       OEI-02-01-00550
LIMITATIONS

          There were several limitations to our methodology. First, due to health departments’ response
          to recent terrorism events, we evaluated a system in transition. Bioterrorism preparedness
          activities are moving swiftly and will have changed from the time of the interviews to the time
          this report is released. Further, the recently approved increases in funding and new initiatives
          related to bioterrorism preparedness will undoubtedly change the systems we evaluated.
          Second, because we selected a purposive sample of 12 States and 36 local health departments,
          our findings cannot be projected to the entire population of States or local health departments.
          Third, we did not assess State and local health departments’ capacity to respond to chemical
          attacks or other forms of terrorism, nor did we look at State or local law enforcement agencies’
          ability to respond to bioterrorism. Finally, the data we collected were self-reported, and we
          have not independently verified their accuracy.

          This inspection was conducted in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




                                                  _____

State and Local Bioterrorism Preparedness           7                                      OEI-02-01-00550
                                            FINDINGS


          Our review of 12 State and 36 local health departments’ bioterrorism preparedness is based on
          in-depth discussions with public health officials, reviews of their emergency response plans, and
          an analysis of their comprehensive self-assessments. Our review revealed that their public
          health infrastructure is under-prepared to detect and respond to bioterrorism. However, almost
          all health departments are currently strengthening their bioterrorism preparedness programs.
          Recent increases in HHS funding, while not addressing all concerns, do provide an opportunity
          to strengthen the public health infrastructure. These findings are evidence that further work is
          needed at the Federal, State, and local level to ensure that our country’s public health system is
          fully prepared to respond to bioterrorism.



State and local public health infrastructure is under-prepared to
detect and respond to bioterrorism

          The capacity of a State, county, or city to detect and respond to bioterrorism depends both on
          the strength of its public health infrastructure and on the ability of its public health department to
          work with emergency response partners. All of the health departments in our sample report
          vulnerabilities in their public health infrastructure that leave them less than fully prepared for a
          bioterrorism event. Table 1 (on the following page) lists key vulnerabilities based on the
          bioterrorism core capacities.

The public health infrastructure’s capacity to detect bioterrorism is weak

          In order for a health department to effectively detect a bioterrorism event, its infrastructure must
          include a strong surveillance system that monitors community health in a timely and accurate
          manner. It must also include sufficient resources to conduct thorough epidemiologic
          investigations and a robust laboratory capacity that can test for bioterrorism agents.

          Surveillance systems are weak. We found that surveillance systems used by State and local
          health departments to identify and define the scope of bioterrorism events are often weak.
          These systems rely on data that are not always timely or submitted consistently by providers. A
          strong surveillance system is particularly important to identify a covert bioterrorism attack, as
          opposed to the announced anthrax events of 2001.




                                                     _____

State and Local Bioterrorism Preparedness              8                                         OEI-02-01-00550
                                                  Table 1
                    Key Vulnerabilities in State and Local Bioterrorism Preparedness
                                (12 State & 36 local health departments)


 Surveillance and               Surveillance systems are weak:
 Epidemiologic                  • 3 States and 10 locals volunteer that communicable disease reports are
 Investigation                   not always submitted or timely
                                • 9 States and 26 locals do not fully validate the completeness or
                                 appropriateness of surveillance data
                                • Only 4 States and 17 locals have an active surveillance system, in
                                 addition to disease reporting
                                Epidemiologic capacity is limited by lack of resources:
                                • 17 local health departments have no epidemiologist on staff
                                • 3 States and 15 locals lack adequate response staff or equipment
                                • 22 locals will rely on State for assistance with investigations

 Identification                 Laboratory capacity is vulnerable:
                                • Laboratory Response Network not fully implemented
                                    < 5 States have an incomplete list of level A labs
                                    < No States hold regular meetings with level A labs
                                    < In 7 States the State laboratories conduct all level B and C testing
                                • States struggled to meet demand during recent anthrax events
                                    < In 9 of 12 States respondents report State Lab was overwhelmed

 Communication                  Not all necessary communication protocols are in place:
                                • 5 States and 17 locals do not have a complete current roster of 24-
                                    hour contact information
                                • 9 States and 24 locals do not have complete risk communication plans

 Mobilization                   States and locals have limited ability to mobilize response:
                                • 3 States and 9 locals volunteer that they have inadequate resources
                                • 4 States and 21 locals have done no testing of response protocols
                                • 5 States and 20 locals do not have complete plans for using the NPS

 Public Health                  States and locals do not have all legal authority they may need:
 Interventions                  • 4 States and 14 locals do not have all needed laws, rules, regulations
                                • Only 7 States can fully activate and enforce quarantine
                                • Only 5 States can fully activate and enforce the seizure of property
                                • Only 6 States can fully activate and enforce the restriction of travel
Sources: OEI State and Local Health Department Interviews, December 2001 through January 2002 and 

OEI State and Local Health Department Core Capacity Self-Assessment, December 2001 through March 2002





                                                        _____
State and Local Bioterrorism Preparedness                 9                                              OEI-02-01-00550
          While communicable disease reporting is the most common system that our sample health
          departments use to monitor community health, this system has several limitations. In general,
          communicable disease reporting requires physicians and laboratories to report communicable
          disease cases to either the State or local health department. Although five local health
          departments use an electronic reporting system, it is more common for local health departments
          to require health care providers to call, fax, or mail their reports. Respondents in 3 States and
          10 local health departments also volunteer that disease reports are not always timely or
          submitted consistently by providers. Further, 9 State and 26 local health departments do not
          fully validate the reports they receive by periodically evaluating their completeness or
          appropriateness. Lastly, some health departments do not appear to have adequate methods to
          analyze disease reports. In fact, several respondents told us that they only look at reports
          weekly and a few say they do not have the capacity to do any analysis. For example, one local
          health department says they cannot do any trend analysis because they do not have access to
          historical data maintained by the State.

          Four State and 17 local health departments we visited have surveillance methods in addition to
          communicable disease reporting. The majority of these local health departments are in large
          cities and some receive special funding from CDC. Their active surveillance methods involve
          collecting and analyzing data from sources such as emergency rooms or 911 calls on a regular
          basis. For example, several health departments monitor emergency room diversions, since
          more than one emergency room reaching full capacity may indicate a problem. One health
          department with no active surveillance reports that it is too costly to implement. Specifically, an
          official says, “We haven’t had the resources to develop [surveillance] algorithms or
          technologies.” Active surveillance also requires the cooperation of outside entities, such as
          hospitals. One heath department reports that the only local hospital with the ability to provide
          surveillance data refused to do so without reimbursement.

          Epidemiologic capacity is limited by lack of resources. After identifying an unusual
          disease outbreak through surveillance, a health department must conduct epidemiologic
          investigations to determine the incidence and distribution of the outbreak. We found that
          sample State and local health departments’ ability to conduct these investigations is limited.
          Many lack the specialized staff or technology they need. In fact, 3 States and 15 local health
          departments volunteer that they lack adequate staff or equipment.

          Of the 36 local health departments we visited, 17 do not have an epidemiologist on staff.
          Nearly all of the local health departments that do have their own epidemiologist serve large
          urban areas. The smaller localities that do not employ their own epidemiologist appear to be
          the most vulnerable. They routinely rely on local public health nurses to investigate disease
          outbreaks.

          Many local health departments, even those with their own epidemiologist, say they may not
          have enough trained staff or technology to conduct increased numbers of investigations during
          an event. Seventeen say they would rely on the State to assist their own epidemiologist or
          cross-trained staff to conduct investigations. Five others say they
                                                    _____

State and Local Bioterrorism Preparedness             10                                      OEI-02-01-00550
          would have to rely exclusively on the State to conduct investigations. A few local health
          departments say having adequate staff for data entry is also a particular concern, especially
          since specialized epidemiology software packages require specific skills. One local health
          department faced difficulty in finding enough staff to do data entry for all of their recent anthrax
          investigations. A respondent from another local health department says, “Data entry personnel
          is where we are weakest.”

          Some State and local health departments have initiatives to strengthen their epidemiologic
          capacity. In one State, they are planning an epidemiologic interview training class for their staff.
          Another local health department has developed diagnostic algorithms to assist with these
          investigations. Further, 12 local health departments have mutual aid agreements with other
          agencies, such as local universities or other health departments, to assist with epidemiologic
          investigations during public health emergencies.

          Laboratory capacity is vulnerable. The capacity of the laboratory system that State and
          local health departments rely on to identify bioterrorism agents is limited. This was particularly
          evident when a number of States could not meet the demand for anthrax testing this past fall.
          While the CDC has outlined a Laboratory Response Network (LRN) to strengthen the nation’s
          ability to identify bioterrorism, it is not fully implemented. The LRN divides laboratories into
          four levels (A, B, C, and D) according to their capacity to test bioterrorism agents.

          To begin with, not all of our sample States have identified or communicated with the level A
          laboratories in their State. These are local clinical laboratories that conduct rule-out testing and
          if necessary refer specimens to a higher level. Five States have an incomplete list of level A
          laboratories. One State respondent reports that they are still “working with CDC to identify
          potential A level labs and approaching them.” Another State reports, “No labs are currently
          level A.” Further, States are not consistently communicating with level A laboratories. None
          conduct regular meetings with level A laboratories and only about half offer formal training.
          One State relies on a secure website to communicate with level A laboratories about protocols.
          They report there is “no assurance [level A laboratories] are complying with these protocols.”

          In seven of the sample States, State laboratories do not have support from an external B or C
          level laboratory. Level B and C laboratories are generally State or city public health
          laboratories that have the capacity to test for certain bioterrorism agents, such as anthrax. In
          the States without level B and C support, the State public health laboratory is the only
          laboratory with the ability to conduct higher level testing. For example, one respondent reports
          that the lack of a public health laboratory in a large metropolitan area “greatly hampers our
          response to a bioterrorism event.” A large city also says that they are “completely dependent
          on the State lab.” They report difficulty adding level B laboratories to their networks. A few
          say local private laboratories refuse to perform bioterrorism testing. For example, one
          respondent says “the (private) laboratory we outsourced our other clinical lab tests to said no
          (to our request to test for bioterrorism.)”



                                                    _____

State and Local Bioterrorism Preparedness             11                                        OEI-02-01-00550
          A few others say that their laboratories are willing to upgrade to level B but have been unable
          to because of a lack of funding or reagents.

          Most States struggled to meet the demand for laboratory testing during the recent anthrax
          events and scares. In 9 of our 12 sample States, at least one respondent volunteers that the
          State laboratory was overwhelmed by the testing. In fact, three States and one large local
          health department sent anthrax specimens out of the State to be tested because of a backlog in
          their own laboratory. Further, a State respondent reports, “During anthrax we were
          backlogged. The counties wanted to send (their specimens) elsewhere.” Some health
          departments had to stop other public health testing in order to conduct their anthrax testing. A
          respondent at one State says, “Right now, we do all the testing, including rule-out. We had to
          divert normal testing, such as HIV and e-coli, during the anthrax crisis.” A different State
          explains, “The number of people in labs dedicated to bioterrorism is limited. Although people
          are cross-trained, it doesn’t scale up rapidly. The rest of the work was put on hold.”

          Several health departments we interviewed discovered other vulnerabilities in their own
          laboratory procedures while responding to the anthrax testing. First, eight local respondents
          mention that there was some confusion regarding the chain of custody of specimens. One
          respondent says, “We didn’t know where [the specimens] were collected from or who needed
          to be called.” Second, others report experiencing delays reporting the results of anthrax testing.
          Another State says that reporting results “was a concern. Clients complained that we didn’t
          contact them.” Third, a few health departments mention that working with the Federal Bureau
          of Investigations (FBI) and law enforcement was not always a smooth process. One
          respondent states, “The FBI was hesitant to share information, even though we were told that
          public health was the first priority. In practice, this was not the case.” Lastly, several
          respondents report that the environmental samples submitted during the events needed to be
          handled differently from human specimens. As one explains, environmental specimens require a
          higher safety level during testing and are often more difficult to label than human specimens.

The public health system’s capacity to respond to bioterrorism is limited

          Once a health department has identified a disease outbreak, it must take additional steps to
          effectively respond. Specifically, the health department must 1) continuously communicate with
          response partners and the public, 2) identify and mobilize the local, State, and national
          resources available to them, and 3) provide the public health measures necessary to control the
          spread of the disease, such as giving vaccinations.

          Not all necessary communication protocols are in place. Although all State and local
          health departments appear to have some ability to communicate with their emergency response
          partners during a bioterrorism event, the current system is vulnerable. The majority have
          redundant communication equipment, such as radios, pagers, and cell phones that will enable
          them to communicate with response partners during an emergency. Although all but one State
          uses the Health Alert Network (HAN) to send


                                                   _____

State and Local Bioterrorism Preparedness            12                                      OEI-02-01-00550
          alerts to local health departments, only half of the States have a HAN that allows two-way
          communication. Further, several State health departments are concerned that not all of their
          local health departments have the capacity to receive and review communications on a 24 hour,
          7 day a week basis. In fact, 5 State and 17 local health departments do not have a complete
          call-down roster with current 24-hour contact information.

          Accurately and effectively communicating with the public and media is crucial during a
          bioterrorism event. Public health departments use “risk communication” to prevent inaccurate
          information from being released to the public, therefore preventing a potentially dangerous
          public response. In addition, appropriate risk communication can foster the public trust that
          may be necessary to effectively control the spread of disease. Although 9 State and 24 local
          health departments do not have complete written risk communication plans, most of the health
          departments report they expect to follow the basic principles of risk communication. These
          include having a central point of contact, such as a public information officer, and conveying a
          single consistent message across response partners.

          States and locals have limited ability to mobilize response. State and local health
          departments expressed concerns about their ability to identify, coordinate, and deploy public
          health assets to assure an effective emergency response. In particular, 3 State and 9 local
          health departments say they will not have the trained staff, equipment, and supplies they need to
          respond to a bioterrorism emergency; others say sustaining a response to a large-scale or long
          term event would be difficult. Further, 4 State and 21 local health departments report that they
          have not tested their response protocols. A few health departments volunteer that they would
          need to rely on Federal support for an adequate response. One local respondent says, “No
          one has the ability to respond to a bioterrorism event. We need to get the rapid response from
          the national level.”

          To compensate for these limitations, health departments are taking several steps. Four State
          and six local health departments plan to rely on cross-trained staff. Six State and 14 local
          health departments will rely on resources and volunteers from the community or response
          partners. However, only 3 State and 14 local health departments have conducted training for
          volunteers. In addition, two State and eight local health departments have begun stockpiling a
          limited number of supplies and pharmaceuticals. Other initiatives include surveying the
          community to identify available resources and forming mutual aid agreements with potential
          public health response partners or other organizations within the community.

          While State health departments are expecting to receive Federal aid in the form of the National
          Pharmaceutical Stockpile (NPS), they do not all have plans for handling the NPS when it
          arrives. The NPS push package contains equipment, supplies, and pharmaceuticals that can be
          delivered within the first few hours of an event. However, 5 State and 20 local health
          departments we interviewed do not have complete plans for receiving, organizing, repackaging,
          securing, and distributing the NPS.



                                                   _____

State and Local Bioterrorism Preparedness            13                                      OEI-02-01-00550
          States and locals do not have all legal authority they may need. To effectively respond
          to bioterrorism, a health department must have the legal authority to implement the necessary
          public health measures to control the spread of disease. Four State and 14 local health
          departments report not having all of the laws, rules, and regulations that clearly specify the
          authorities they may need to activate and enforce emergency public health and infection control
          measures. These measures, or interventions, could include closure or quarantine of public
          places, isolation of infected persons, restrictions on travel, or seizure of personal belongings or
          property. Further, some of the departments say they may not have the capacity to enforce
          their legal authority. For example, only seven States have the capacity to fully activate and
          enforce quarantine. Only five States report that they can fully activate and enforce the seizure
          of personal property and only six States can fully restrict travel. Several respondents say they
          need to rely on local law enforcement to implement these public health measures. As one
          explains, “[The] relationship between public health and law enforcement is key to moving
          effectively and efficiently.”



In response to recent terrorism events, virtually all public health
departments are strengthening their bioterrorism preparedness
programs

          Recent events have heightened awareness around bioterrorism preparedness. In fact, all
          sample States and 32 of the 36 local public health departments have written or are currently
          writing a bioterrorism response plan. A review of these plans reveals that most are integrated
          into a wider emergency management plan. While they typically include an organizational chart
          showing the emergency command structure, a list of response partners, and an outline or
          summary of emergency response procedures, their level of detail varies. Some are more
          comprehensive, such as one plan that includes a detailed algorithm for responding to
          bioterrorism and discusses the legal authorities for public health interventions. Conversely,
          other plans are very broad, with few specific bioterrorism features.

          Four local health departments we interviewed do not have a plan and are not currently writing
          one. One respondent says they “need guidance from the Federal” government about what to
          write. Another says, “Planning for bioterrorism is not a priority for this health department.”

          The local health departments we visited have begun to integrate their public health preparedness
          activities with response partners in their community. These partners include traditional
          emergency response partners, such as local law enforcement, hospitals, health care providers
          and associations, laboratories, and fire departments. Health departments have also increasingly
          reached out to form relationships with other entities, such as the Red Cross, schools, medical
          examiners, and amateur radio operators. Most health departments are part of terrorism
          taskforces, workgroups, or committees and some also have formal mutual aid agreements.




                                                    _____

State and Local Bioterrorism Preparedness             14                                       OEI-02-01-00550
          Seven State and ten local health departments also say they have received more support from
          decision-makers and other stakeholders for their bioterrorism preparedness programs since the
          recent terrorism events. Several report new staff positions were funded to integrate
          bioterrorism preparedness with other activities. Respondents in 5 States and 12 local health
          departments report that political leaders have been attending emergency response planning
          meetings or have started their own taskforce. Three local health departments have also
          received more funding for bioterrorism.



Recent funding provides an opportunity to strengthen public
health, but concerns remain

Guidance from recent funding requires States to address most vulnerabilities

          In 2002, the Department significantly increased funding to State and local health departments
          through two cooperative agreement programs. First, CDC’s Bioterrorism Preparedness and
          Response Cooperative Agreement Program has increased from $66.7 million in 2001 to $918
          million in 2002. Second, in February 2002, HRSA announced a new $125 million cooperative
          agreement program with State health departments to upgrade hospital preparedness.

          Detection. Recent funding appears to target a number of the weaknesses in disease
          surveillance and epidemiology. As noted earlier, health departments are relying on
          communicable disease reports that are not always timely or submitted consistently by providers.
          Further, almost half of the local health departments do not have an epidemiologist to investigate
          these reports. As shown in Appendix A, CDC’s cooperative agreement guidance provides
          State health departments with opportunity to improve their capacity to detect bioterrorism by
          strengthening their disease reporting system and requiring one epidemiologist in each
          Metropolitan Statistical Area with a population over 500,000.

          Recent funding also addresses several weaknesses in laboratory capacity. As we noted above,
          about half of the States have not identified all level A clinical laboratories and some have
          concerns about their relationship with law enforcement. As discussed in Appendix A, CDC’s
          new cooperative agreement funding gives State health departments an opportunity to improve
          these weaknesses by writing plans and procedures that include all laboratories in their
          jurisdiction and by improving relations with the FBI and level A laboratories.

          Response. Recent funding also presents several opportunities for State health departments to
          improve their response and communication capacity, as illustrated in Appendix A. First, health
          departments will be funded to plan for the use of the NPS. Second, States will enhance their
          communication capacity by expanding the Health Alert Network, developing a risk
          communication plan, and helping local health departments to have 24 hours per day, 7 days per
          week communication systems. Third, States are


                                                   _____

State and Local Bioterrorism Preparedness            15                                     OEI-02-01-00550
          required to examine their statutes, regulations, and ordinances to determine whether they
          provide authority to perform emergency public health measures. Lastly, recent funding also
          requires States to improve their ability to protect the personal safety of responders, including
          health care providers. This concern has been raised by several of our respondents, especially
          regarding vaccinating first responders.

Some concerns remain

          Some respondents raise concerns that go beyond the scope of recent funding. To begin with,
          some health departments noted that sustained Federal funding for both bioterrorism
          preparedness and the public health infrastructure is critical. For example, some respondents
          believe they cannot hire and maintain professional staff, such as epidemiologists and laboratory
          technicians, without a commitment of sustained funding. Others comment that bioterrorism
          preparedness initiatives will be less effective without the support of a strong public health
          infrastructure. For example, one respondent states, “Money to do specific things such as
          laboratory capacity won’t help us respond without public health nurses.”

          The mental health component of response is not adequately addressed by CDC’s recent
          funding guidance. One respondent, stressing the importance of mental health services, says,
          “Mental health services should be better prioritized.” Several respondents believe that the
          public, first responders, and victims and their families will have significant mental health needs
          during a bioterrorism event. Further, anxious members of the public seeking unnecessary
          medical attention could quickly overwhelm the health care system during a bioterrorism event.
          Although HRSA funding guidance discusses mental health, the CDC cooperative agreement
          guidance does not address mental health issues. For example, while CDC requires States to
          establish a bioterrorism advisory committee with representation from other State and local
          agencies, it does not identify mental health agencies as required members.

          Additionally, some health departments report that difficult tactical decisions may complicate
          their ability to respond to bioterrorism. Several officials note that during a large-scale event
          resources would be limited, meaning that difficult ethical decisions will need to be made, such as
          deciding which patients receive treatment and which do not. For instance, one respondent is
          concerned that there are only a small number of ventilators in her county. If there were ever a
          smallpox outbreak, she volunteers, someone would need to decide which patients were given
          the ventilators and which were denied or perhaps taken off their equipment. At least one health
          department is beginning to address these difficult issues by initiating a series of bioethical
          seminars for its staff.

          Lastly, we found that hospital laboratories can play an important role in the laboratory response
          system. Although HRSA’s cooperative agreement addresses hospital preparedness and
          capacity, it does not currently address the role and capacity of hospital-based laboratories in
          States’ Laboratory Response Networks.



                                                    _____

State and Local Bioterrorism Preparedness             16                                       OEI-02-01-00550
                                            CONCLUSION


          The findings in this report show that our public health infrastructure has left us under-prepared
          to detect and respond to bioterrorism. Not all State and local health departments have
          sufficient staff, surveillance systems, technology, or laboratory capacity to quickly and
          accurately identify an attack. Some also lack the plans, partnerships, or authorities to
          adequately respond. Since the anthrax attacks in the Fall of 2001, health departments have
          started to reassess their preparedness and the federal government has substantially increased
          funding to rebuild public health infrastructures. Based on these findings, we conclude that
          further work is needed at the Federal, State, and local levels to ensure that our country’s public
          health system is fully prepared to respond to bioterrorism.




                                                   _____

State and Local Bioterrorism Preparedness            17                                       OEI-02-01-00550
                               RECOMMENDATIONS

          First and foremost, CDC should develop a monitoring system to ensure that the
          bioterrorism preparedness funds are being used as intended. In 2002, State and local
          health departments will receive $918 million in cooperative agreement funds to bolster the
          public health infrastructure and improve their capacity to detect and respond to bioterrorism.
          Each of these cooperative agreements outlines a plan for reaching these goals. It is essential
          that CDC closely monitor the progress of State and local health departments in accomplishing
          the goals set forth in these plans.

          The Assistant Secretary for Public Health Emergency Preparedness should work with
          States to develop strategies that sustain the public health infrastructure subsequent to
          the current influx of Federal funding. Although there will be a significant increase in Federal
          support to States, it is essential that infrastructure improvements be maintained in order to
          protect our nation from the effects of future bioterrorism attacks.

          The CDC and the Substance Abuse and Mental Health Services Administration should
          work together to address community mental health needs in its future guidance to
          States. Our review of CDC’s new program guidance reveals that it does not fully address the
          mental health components of bioterrorism preparedness. Should a bioterrorism event occur,
          first responders, victims and their families, and anxious members of the public would likely have
          significant mental health needs.

          The CDC should work with States to help them address tactical decisions related to
          bioterrorism response. Respondents raise several of these issues, such as deciding which
          patients would receive limited treatment and immunizing first responders. The CDC should
          provide technical assistance to States to support them in discussing and planning to deal with
          these, and potentially other, tactical decisions.


AGENCY COMMENT

          The Assistant Secretary for Public Health Emergency Preparedness (ASPHEP), who directs
          and coordinates the HHS activities related to bioterrorism and other public health emergencies,
          commented on the draft report on behalf of the pertinent HHS agencies and offices. In general,
          the ASPHEP concurs with our recommendations. It notes that financial and program
          monitoring systems are being developed for the cooperative agreements. The ASPHEP also
          notes that CDC will include mental health needs in future guidance, as well as provide technical
          assistance to States. Appendix B contains the full text of the comment.



                                                   _____

State and Local Bioterrorism Preparedness            18                                      OEI-02-01-00550
                                                                                                 APPENDIX A


                      2002 CDC and HRSA Cooperative Agreement Guidance
                          Requires States to Address Key Vulnerabilities


 Area of Vulnerability                      Guidance Addressing Key Vulnerabilities

 Surveillance and                           • States must have a “highly functioning, mandatory reportable
 Epidemiologic                              disease surveillance system” with timely reporting by providers
 Vulnerabilities                            and laboratories.

                                            • States must prepare a timeline for developing a system to
                                            receive and evaluate these reports on a 24/7 basis.

                                            • States should consider providing education for laboratories and
                                            providers about reporting requirements.

                                            • States should pursue active surveillance of outside data sources
                                            after fulfilling the basis capacities.

                                            • States must write a plan to provide one epidemiologist for each
                                            Metropolitan Statistical Area with a population greater than
                                            500,000.


 Identification                             • States must create an integrated response plan (that includes
 Vulnerabilities                            results reporting) for laboratories within their jurisdiction.

                                            • States must develop operational plans and protocols that
                                            include transporting specimens, training of personnel, triage
                                            procedures for prioritizing intake and testing of specimens.

                                            • States must establish operational relationships with local
                                            Hazardous Material (HAZMAT) teams, first responders, and the
                                            FBI.

                                            • States must prepare a timeline for “ensuring effective working
                                            relationships and communication between level A (clinical)
                                            laboratories and higher level laboratories.”

                                                         Continued


                                                           _____
State and Local Bioterrorism Preparedness                    19                                      OEI-02-01-00550
 Communication                              • States must prepare a timeline for a plan that ensures 90 percent
 Vulnerabilities                            of the population is covered by the Health Alert Network.

                                            • States must develop an interim plan for risk communication and
                                            information dissemination to the public.

                                            • States must work with local health departments to ensure that
                                            they establish and maintain a system for 24/7 notification.


 Mobilization                               • States must develop an interim plan to receive and manage items
 Vulnerabilities                            from the National Pharmaceutical Stockpile and other sources (and
                                            identify personnel to be trained for these functions).


 Public Health                              • States must prepare a timeline for assessment of statutes,
 Interventions                              regulations, and ordinances within the state that provide for
 Vulnerabilities                            executing emergency public health measures.

                                            • States must develop and expand their capacity to address
                                            worker health and safety issues related to bioterrorism, with a
                                            primary focus on protection of emergency response workers,
                                            remediation workers, and exposed occupational groups.

                                            • States should assess the need for protection of clinicians
                                            (vaccination, antibiotic prophylaxis, personal protective equipment,
                                            education) to ensure their availability in an epidemic.




                                                          _____
State and Local Bioterrorism Preparedness                   20                                      OEI-02-01-00550
                                                                                     APPENDIX B


                                            Agency Comment

In this appendix, we present in full the comment from the Assistant Secretary for Public Health
Emergency Preparedness.




                                                 _____

State and Local Bioterrorism Preparedness          21                                     OEI-02-01-00550
                                            _____
State and Local Bioterrorism Preparedness     22    OEI-02-01-00550
                                            _____
State and Local Bioterrorism Preparedness     23    OEI-02-01-00550
                              ACKNOWLEDGMENTS


This report was prepared in New York under the direction of John I. Molnar, Regional Inspector
General for Evaluation and Inspections, and Jodi D. Nudelman, Assistant Regional Inspector General.
Other principal Office of Evaluation and Inspections staff who contributed include:

Demetra Arapakos, Team Leader                   Joseph Rutherford, Program Specialist

Miriam Gareau, Project Leader                   Genevieve Nowolinski, Program Specialist

Patricia Banta, Program Analyst

Judy Kellis, Program Analyst

Christi Macrina, Program Analyst

Ellen Vinkey, Program Analyst

Thomas Zimmermann, Program Analyst

Tricia Fields, Program Analyst - Kansas City

Kristen Masse, Program Analyst - Chicago

Pamela Minniear, Program Analyst - San Francisco 

Clark Thomas, Program Analyst - Dallas

Deborah Walden, Program Analyst - Kansas City





                                               _____

State and Local Bioterrorism Preparedness        24                                    OEI-02-01-00550
